DATE:     December 1, 1995

IN REPLY
REFER TO:     IG-1

SUBJECT: INFORMATION: Report on Audit of the Department of Energy’s Site
Safeguards and Security Plans

TO:     The Secretary

BACKGROUND:

The Department's Safeguards and Security program is designed to provide
appropriate, efficient, and effective protection of the Department’s nuclear
weapons, nuclear materials, facilities, and classified information. Department
of Energy policy, contained in DOE orders, specifies that Departmental
interests shall be protected against a range of threats through the development
of Site Safeguards and Security Plans (SSSPs). The SSSP is intended to depict
the existing condition of safeguards and security site-wide and by facility,
establish improvement priorities, and provide an estimate of the resources
required to carry out the necessary improvements. The purpose of the audit was
to determine if the Office of Safeguards and Security was using revised SSSP
guidance as ldefacton policy to evaluate and approve SSSPs, and to determine if
the new requirements established by the guidance were justified. The attached
report is being sent to inform you of our findings and recommendations.

DISCUSSION:

The SSSP guidance issued by the Office of Safeguards and Security was used as
policy to prepare, complete, and review field site security plans. This
guidance was not coordinated with and did not receive concurrence from
Headquarters program offices and field sites. In addition, the guidance
established new unjustified protection requirements and was used improperly as
a tool to evaluate field site performance. The Departmental Directives System
Manual states that guidance may only provide non-binding instructions for
implementation that are not mandatory and do not establish new requirements.
Moreover, policy directives can only be issued with the appropriate review,
coordination and concurrence of the affected organizations.

We recommended that the Office of Nonproliferation and National Security
discontinue using guidance as policy for evaluation, approval, and concurrence
of Site Safeguards and Security Plans until they have been formally coordinated
and concurred on by program and field elements. We also recommended that all
proposed policy changes and guidance, when used as policy, be coordinated with
affected program and field offices through the Departmental Directives System.
Although the Office of Nonproliferation and National Security agreed that
guidance should not be used as policy, they have not agreed to implement the
recommendations and stated that they will continue to use the guides. In
addition, they did not agree that the guidance issued by their office
established requirements or that the new security requirements were
unjustified.



(Signed)
                                    John C. Layton
                                    Inspector General

Attachment

cc:     Deputy Secretary
        Under Secretary

                            U.S. DEPARTMENT OF ENERGY
                           OFFICE OF INSPECTOR GENERAL




                      AUDIT OF THE DEPARTMENT OF ENERGYmS
                      SITE SAFEGUARDS AND SECURITY PLANS

        The Office of Inspector General wants to make the distribution
           of its reports as customer friendly and cost effective as
      possible. Therefore, this report will be available electronically
                       following alternative addresses:

                   Department of Energy Headquarters Gopher
                               gopher.hr.doe.gov

                Department of Energy Headquarters Anonymous FTP
                              vm1.hqadmin.doe.gov

       Department of Energy Human Resources and Administration Home Page
                      http://www.hr.doe.gov/refshelf.html

         Your comments would be appreciated and can be provided on the
                Customer Response Form attached to the report.

                     This report can be obtained from the
                           U.S. Department of Energy
                Office of Scientific and Technical Information
                                  P.O. Box 62
                          Oak Ridge, Tennessee 37831




Report Number: DOE/IG-0382
Capital Regional Audit Office
Date of Issue:      December 1, 1995
Germantown, Maryland 20874

                      AUDIT OF THE DEPARTMENT OF ENERGY'S
                      SITE SAFEGUARDS AND SECURITY PLANS


                                TABLE OF CONTENTS
                                                                  Page

SUMMARY........................................................      1

PART I - APPROACH AND OVERVIEW ...............................       3

Introduction.................................................... 3

Scope and Methodology.................................               3

Background...................................................... 4

Observations and Conclusions..................                       5

PART II - FINDING AND RECOMMENDATIONS ....       ..............      7

Use of Security Guidance.............................                7

PART III - MANAGEMENT AND AUDITOR COMMENTS               ......     14



                           U.S. DEPARTMENT OF ENERGY
                          OFFICE OF INSPECTOR GENERAL
                           OFFICE OF AUDIT SERVICES


                      AUDIT OF THE DEPARTMENT OF ENERGY'S
                      SITE SAFEGUARDS AND SECURITY PLANS


       Audit Report Number:   DOE/IG-0382

                                     SUMMARY


                        The Department of Energy (Department) is
          required to protect its nuclear facilities from unauthorized
          access and theft, diversion, or destruction of special
          nuclear materials such as plutonium and uranium-235. The
          facilities housing such nuclear materials are subject to
          special safeguards and security planning requirements. The
          steps taken by the field sites to meet these requirements
          are outlined in a document entitled the lSite Safeguards
          and Security Plann (SSSP). We initiated the audit at the
          request of the Office of Nonproliferation and National
          Security to evaluate the progress made in the SSSP process.
          The audit was performed to determine whether SSSP guidance
          was used as policy to evaluate and approve the site plans
          and whether new security requirements established by the
          guidance were justified.

                        The SSSP guidance issued by the Office of
          Safeguards and Security was used as policy to prepare,
          complete and review field site security plans. This
          guidance was not coordinated with and did not receive
concurrence from Headquarters program offices and field
sites. In addition, the guidance established new
unjustified protection requirements and was used improperly
as a tool to evaluate field site performance. The
Departmental Directives System Manual states that guidance
may only provide non-binding instructions for implementation
that are not mandatory and do not establish new
requirements. Moreover, policy directives can only be
issued with the appropriate review, coordination and
concurrence of the affected organization.

              These problems occurred because field sites
were required to accept the SSSP guides as policy since
their site plans would be evaluated against the guidance
requirements. The Office of Safeguards and Security had
previously tried to issue the new requirements through the
Directives System but was unsuccessful in obtaining program
and field office concurrence. Subsequently, the guides have
not been resubmitted as policy documents through the
Department's Directives System.

              Of the five locations we visited, three had
identified facilities that would be pushed above the Office
of Safeguards and Security's acceptable level of low risk
when new security (consequence) values were incorporated.
Each of the sites will need to devise and install additional
compensatory measures because of the increase in consequence
values.

              The Savannah River Operations Office estimated
it would need between $5.1 million and $6.7 million for security
upgrades and enhancements along with an additional $1.5 million to
reevaluate its SSSPs. The Lawrence Livermore National
Laboratory estimated it would spend almost $100,000 annually
to maintain additional protective force members. The Los
Alamos National Laboratory estimated it would need about
$1.2 million annually to add protective force members and
another $400,000 for security system upgrades to compensate
for the increase in risk. The Rocky Flats Field Office
could not provide a timely cost estimate for the increase in
risk levels. The Idaho Operations Office had previously
established security levels that exceeded the new
requirements.

              We recommended that the Office of
Nonproliferation and National Security discontinue using
guidance as policy for evaluation, approval, and concurrence
of Site Safeguards and Security Plans until they had been
formally coordinated and concurred on by program and field
elements. We also recommended that all proposed policy
changes and guidance, when used as policy, be coordinated
with affected program and field offices through the
Departmentms Directives System.

     Although the Office of Nonproliferation and National
Security agreed that guidance should not be used as policy,
they have not agreed to implement the recommendations and
stated that they will continue to use the guides.
Management also disagreed that: 1) guidance issued by their
office established requirements, 2) the new consequence
values were unjustified, or 3) the Design Basis Threat
Policy should be coordinated with the affected offices.




________(Signed)______________

                          PART I

                   APPROACH AND OVERVIEW

INTRODUCTION

          The Department of Energy (Department) is required
to protect its nuclear facilities from unauthorized access
and theft, diversion, or destruction of special nuclear
materials such as plutonium and uranium-235. The facilities
housing such nuclear materials are subject to special
safeguards and security planning requirements. The steps
taken by the field sites to meet these requirements are
outlined in a document entitled the lSite Safeguards and
Security Plann.

          The overall audit objective was to review the Site
Safeguards and Security Plans (SSSPs) to determine if:

           the Office of Safeguards and Security was using revised
       SSSP guidance as defacto policy to evaluate and approve Site
       Safeguards and Security Plans.

           the new requirements established by the guidance were
       justified.

SCOPE AND METHODOLOGY

     In response to the Inspector Generalms request for
suggested audit areas for Fiscal Year 1995, the Office of
Security Affairs recommended three programmatic audits. All
three audits addressed planning and implementation of Site
Safeguards and Security Plans and compliance with the
Secretaryms mandate for approval of the security plans. Our
audit was begun in response to managementms request with an
expanded scope that included an evaluation of the use of
security guidance as policy.

          The audit was performed from October 19, 1994, to
March 31, 1995, at five Departmental locations; the Rocky
Flats Field Office, the Idaho Operations Office, the
Savannah River Operations Office, and the Lawrence Livermore
and Los Alamos National Laboratories. Information was also
obtained from personnel in the Offices of Safeguards and
Security, Defense Programs, Environmental Management, Energy
Research, Security Evaluations, and Human Resources and
Administration.

          A review was made of applicable laws and
Departmental orders, implementing procedures and practices,
and the approved SSSPs and Master Safeguards and Security
Agreements for each site visited. We also reviewed changes
in the development and approval process for the SSSPs and
identified those facilities with difficulties in the
implementation process. An evaluation was made of SSSP
guidance documents and implementing instructions issued by
the Headquarters program offices and the Office of
Safeguards and Security.

          The audit was made in accordance with generally
accepted Government auditing standards for performance
audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary
to satisfy the audit objective. We assessed the significant
internal controls to determine whether the Department's
Headquarters and field organizations had exercised adequate
management control over security operations. Because our
review was limited, it would not necessarily have disclosed
all internal control deficiencies that may have existed at
the time of our audit. Computer-processed data was not
utilized to accomplish our audit objectives.

          An exit conference was held with the Office of
Nonproliferation and National Security on September 18,
1995.

BACKGROUND

          The Safeguards and Security Program is designed to
provide appropriate, efficient, and effective protection of
the Department's nuclear weapons, nuclear materials,
facilities, and classified information. Department of
Energy policy, contained in DOE orders, specifies that
Departmental interests shall be protected against a range of
threats through the development of SSSPs. The SSSP is
intended to depict the existing condition of safeguards and
security site-wide and by facility, establish improvement
priorities, and provide for an estimate of the resources
required to carry out the necessary improvements. The
process for preparing and completing the SSSP generally
includes the following key elements:

          performance by DOE field sites of vulnerability
      assessments of the protection measures in place at a
      sensitive facility;

          development of the facility plan, called the Master
      Safeguards and Security Agreement;

             compilation of the facility description and the resource
      plan (this step is under revision and may or may not be
      present at all sites); and

          evaluation of the completed SSSP plan by the field sites,
      the Office of Security Affairs, and the responsible
      Headquarters program office.

          The completed SSSP plan describes basic protection
strategies at the facility as well as ways in which each
weakness identified will be corrected. In addition, it
describes the overall safeguards and security posture of the
area surrounding the facility and incorporates information
drawn from the vulnerability assessments and operational
plans.

          Instruction for the preparation and completion of
the SSSPs is provided in the lFormat and Content Guide for
Site Safeguards and Security Plansn (Format and Content
Guide) issued by the Office of Safeguards and Security.
This guide gives detailed direction on the facilities which
must have a SSSP, the format in which the SSSP is written,
and the level of protection for special nuclear material.
In conjunction with the issuance of the Format and Content
Guide, the lSite Safeguards and Security Plan Acceptance
Criteria and Review Guiden (Criteria and Review Guide) was
also issued. This guide outlines the methods to be used for
the review of SSSPs.

          Various Departmental offices share responsibility
for the safeguards and security management and oversight,
including plan preparation and review. The Office of
Safeguards and Security is responsible for establishing
security policy and for reviewing all the SSSPs for
compliance with the policy. Headquarters program managers
and field site managers have responsibility and
accountability for implementing effective safeguards and
security measures at the facilities. The field sites,
through their survey and validation efforts, evaluate
whether the protection measures in place comply with the
basic policy requirements. Finally, the Office of Security
Evaluations provides independent assurance of the field
sites compliance with the requirements through inspections
and evaluations.

          In October 1992, the General Accounting Office
reported that the Department had not completed the required
security plans for all facilities and stated that the
Department had a lack of commitment at all levels to
security planning. Since then the Secretary mandated that
the Department's Site Safeguards and Security Plans be
completed and approved by April 1994. Although not all
facilities met this time-frame, all but one facility had an
approved SSSP at the end of the field work (March 1995).
The Rocky Flats Field Office had completed all evaluations
and assessments, but still needed the required Headquarters
concurrences and approvals on the document.
OBSERVATIONS AND CONCLUSIONS

          The SSSP guidance issued by the Office of
Safeguards and Security was used as policy to prepare,
complete and review field site security plans. This
guidance was not coordinated with and did not receive
concurrence from Headquarters program offices and field
sites. In addition, the guidance established new
unjustified protection requirements and was used improperly
as a tool to evaluate field site performance. The
Departmental Directives System Manual states that guidance
may only provide non-binding instructions for implementation
that are not mandatory and do not establish new
requirements. Also, policy directives can only be issued
with the appropriate review, coordination and concurrence of
the affected organizations. The review showed, however,
that field sites were required to accept the SSSP guides as
policy because their site plans would be evaluated against
the guidance requirements. The Office of Safeguards and
Security had previously tried to issue the new requirements
through the Departmentms directives system but was
unsuccessful in obtaining program and field office
concurrence.

          Improperly establishing policy is counter-
productive to the Department's continuing efforts to meet
Presidential initiatives to reduce regulatory requirements.
In addition, the issuance of new guidance as ldefacton
policy with unjustified increases for new SSSP requirements
will cause the sites to spend millions of dollars for
security improvements or compensatory measures.

          Of the sites visited, three of the five locations
had identified facilities that will be pushed above the
Office of Safeguards and Security's acceptable level of low
risk when the new security (consequence) values are
incorporated. Each of the sites will need to devise and
install additional compensatory measures to counter
increases in the levels of risk caused by unjustified
increases in consequence values.

          The Savannah River Operations Office estimated it
would need between $5.1 million and $6.7 million for security
upgrades and enhancements along with an additional $1.5 million to
reevaluate their SSSPs. The Lawrence Livermore National
Laboratory estimated it would spend almost $100,000 annually
to maintain additional protective force members. The Los
Alamos National Laboratory estimated it would need about
$1.2 million annually to add protective force members and
another $400,000 for security system upgrades to compensate
for the increase in risk. Cost estimates were not received
from Rocky Flats Field Office and Idaho Operations Office.
Rocky Flats could not provide a timely cost estimate and
Idaho had already established security levels above the new
requirements.

          We recommended that the Office of Nonproliferation
and National Security discontinue using guidance as policy
for evaluation, approval, and concurrence of Site Safeguards
and Security Plans until they have been formally coordinated
and concurred on by program and field elements. We also
recommended that all proposed policy changes and guidance,
when used as policy, be coordinated with affected program
and field offices through the Departmental Directives
System.

      Although the Office of Nonproliferation and National
Security agreed that guidance should not be used as policy,
they have not agreed to implement the recommendations and
stated that they will continue to use the guides.
Management also disagreed that: 1) guidance issued by their
office established requirements, 2) the new consequence
values were unjustified, or 3) the Design Basis Threat
Policy should be coordinated with the affected offices.

     Use of guidance as policy by the Office of Safeguards
and Security constitutes an internal control weakness that
should be considered when preparing the yearend assurance
memorandum on internal controls.

     The audit finding is discussed in detail in Part II of
this report. Management's detailed comments, along with
auditor responses, where appropriate, are contained in
Part III of the report.

                          PART II

                FINDING AND RECOMMENDATIONS


                 Use of Security Guidance

FINDING

          The Department's Directives System Manual provides
that before guidance is allowed to be used as policy it must
be coordinated with and concurred upon by program and field
offices. Guidance issued outside of the Directives System
cannot be used as binding policy to establish new
requirements or to evaluate performance. However, the audit
showed that guidance issued by the Office of Safeguards and
Security was used as policy to prepare, complete, and review
site SSSPs. Moreover, the guidance established new
unjustified requirements for the protection of special
nuclear material and was used improperly as a tool to
evaluate site security performance. This occurred because
the Office of Safeguards and Security did not follow the
directive system for communication of proposed changes
including the proper Departmental coordination and
concurrence process. Implementing the revised security
guidance will cost the Department at least $5.5 million to
$7.1 million for upgrades and enhancements and another $1.5
million to reanalyze the sites current SSSPs. In addition,
annual costs of $1.3 million will be required for additional
protective force members.

RECOMMENDATIONS

          We recommend that the Director, Office of
Nonproliferation and National Security ensure that the
Office of Safeguards and Security:

1.   Discontinue using the lFormat and Contentn and the
lCriteria and Reviewn Guides as policy for
evaluation, approval and concurrence of Site Safeguards and
Security Plans until formal coordination and concurrence
has been obtained from program and field elements.

2.   Coordinate all proposed policy changes and guidance,
when used as policy, with affected program and field
offices through the Departmental Directives System.

 MANAGEMENT REACTION

      Although the Office of Nonproliferation and National
Security agreed that guidance should not be used as policy,
they have not agreed to implement the recommendations and
stated that they will continue to use the guides.
Management also disagreed that: 1) guidance issued by their
office established requirements, 2) the new consequence
values were unjustified, or 3) the Design Basis Threat
Policy should be coordinated with the affected offices.
Detailed management and auditor comments are included in
Part III.



                       DETAILS OF FINDING

DIRECTIVES SYSTEM

     The Departmental Directives System Manual, dated
December 1993, defines the different types of directives and
describes the hierarchy of each directive including the use
of guidance and policy documents. The Manual prescribes
that guidance may only provide non-binding instructions for
implementation and that guidance is not mandatory and may
not establish new requirements or be used as a tool for
evaluating performance. It also outlines the procedures for
issuing policy, including development, review, coordination,
issue resolution, concurrence, and implementation. The
Manual requires Headquarters elements responsible for
development of a directive to prepare a project plan that
includes performing a cost-benefit analysis. Any
ldirectivesn issued outside of the Directives System
boundaries are considered unauthorized or lroguen
directives. These are defined as guidance or requirements
that cross organizational lines and are conveyed by
memorandum or other means rather than through the Directives
System.
SITE SAFEGUARDS AND SECURITY PLANS

     Department of Energy policy specifies that Departmental
interests shall be protected against a range of threats
through the development of SSSPs. The SSSP is to show the
existing security conditions at each site and facility,
establish security improvement priorities, and estimate the
resources required to implement the improvements. The SSSP
contains the following three volumes:

          Master Safeguards and Security Agreement (MSSA);

          Facility Descriptions and Operational Plans; and

          Resource Plans.


          Before implementation, the SSSPs must be approved
by the Heads of Field Elements and the appropriate program
offices, and concurred upon by the Office of Safeguards and
Security. The completed SSSP describes basic protection
strategies that the site will use and ways each weakness
identified will be corrected.

SECURITY GUIDES

          The Office of Safeguards and Security issued two
security guides in 1993 that directed how the sites will
prepare and obtain approval for their SSSPs. The lFormat
and Content Guide for Site Safeguards and Security Plansn
provided detailed direction on the facilities which must
have a SSSP, the format in which the SSSP is written, and
the level of security protection for special nuclear
material.

           In conjunction with the Format and Content Guide,
the lSite Safeguards and Security Plan Acceptance Criteria
and Review Guiden was also issued. This guide outlines
methods for the review and approval of the site SSSPs. The
guide requires field and/or operations office security
personnel to perform a detailed review of the SSSP that
includes onsite observation and performance testing, usually
referred to as a validation review. After the validation
review, the Office of Safeguards and Security and the
Program Offices perform similar reviews called verification
reviews. The verification results are used to determine if
the SSSP is either approved or not approved by Headquarters
officials.

COORDINATION AND CONCURRENCE OF SECURITY GUIDES

          The Office of Safeguards and Security issued
guidance that was used as policy to prepare, complete, and
review Departmental site SSSPs. This unauthorized policy
issued through the Format and Content Guide and Criteria and
Review Guide was not coordinated with and did not receive
concurrence from affected program and field offices. The
guides included new security requirements for protection
against theft and diversion of special nuclear material that
were increased by security officials without providing
adequate justification. In addition, the guidance was used
improperly by the Office of Safeguards and Security as a
tool to evaluate site security performance.

New Requirements Increase Consequence Values

          The new security requirements developed for
protection against theft and diversion of special nuclear
material were increased from previously accepted levels. In
April 1993 a new Format and Content Guide was issued by the
Office of Safeguards and Security which raised the
consequence values for all types of materials except
assembled weapons and test devices. The increase in these
values caused an automatic increase in the risk level
assigned to each facility. When a facility's risk level
changes, an evaluation of the new level must be completed.
If the new level exceeds the acceptable level of low risk
established by the Office of Safeguards and Security,
upgrades and enhancements must be put in place to return the
risk level to low.

          The consequence values were previously set at
levels accepted by the DOE security complex and have been
used relatively consistently for the last 7 years. The new
values had been discussed at previous quality panel meetings
where program and field offices disagreed with raising the
values without adequate justification. Several field and
program offices have since requested justification for the
increase and have not received a response that they
considered satisfactory from the Office of Safeguards and
Security.

Requests for Justification

          We requested justification from the Office of
Safeguards and Security for the increase in the theft and
diversion consequence values. Security officials did not
provide a valid reason why the increase was made. Instead,
our inquiries were redirected to different policy and
program officials. Further, one official stated that he
could not say why the values went up. Sites could use their
own site specific information if they wanted to; however,
during the verification review, Headquarters would evaluate
the SSSP on the values found in the guidance. Another
official could not provide justification for the increase,
but stated that if a site could provide adequate
justification for using the lower values, that was fine. He
added however, that no site has ever used lower values and
had their SSSP approved.

          The Office of Defense Programs had also requested
the justification for the increase, but was unsuccessful in
obtaining it. Further, officials from the Office of
Environmental Management (EM) requested justification for
the increase in consequence values and were told that the
new values were chosen because no alternative was proposed.
Additionally, EM personnel stated that although the field
offices disagreed with the values, Security Affairs would be
using these values to evaluate the field.

          In February 1995, a security quality panel meeting
was held in Albuquerque, New Mexico. At this meeting,
Departmental officials from across the complex again
requested justification for the increase in consequence
values. Site security personnel who attended the panel
informed us that no justification was forthcoming. As of
the date of this report, the Office of Safeguards and
Security has not responded to these requests for
justification.

Measuring Site Performance

          Guidance documents issued by the Office of
Safeguards and Security were used improperly as policy for
the preparation and approval of SSSPs. The purpose of
guides are to instruct, inform, or request action, but they
should not establish or change policy, requirements,
procedures, or responsibilities. The "Format and Content
Guide for Site Safeguards and Security Plans" and its
companion, the "Site Safeguards and Security Plan Acceptance
Criteria and Review Guide" were proposed as implementing
guides to standardize documentation and evaluation of field
sites' security plans. When issued as guides, these
documents did not require processing through the
Department's Directives System and compliance was not
mandatory. However, because these guides were used by
security officials as an evaluation tool to measure site
performance, they were no longer a recommended way of doing
business, but the only way.

          All sites were informed that the two guides would
be used to review their SSSPs. In an April 1993 memorandum
to all field security directors, the Director, Office of
Safeguards and Security stated that his office lintends to
use the guides in the course of reviewing plans sent to DOE
Headquarters for approval and/or concurrence.n Any comments
received on draft SSSPs must be addressed by the site before
the Office of Security Affairs will provide their
concurrence on the document. Without this concurrence,
program office officials will not approve the field site's
SSSP and the site remains out of compliance with DOE orders
until this approval is received.

          Some sites had received comments on their SSSPs
based specifically on guidance lrequirementsn during
Headquarters verification reviews. For example, in a
December 1994 memorandum from the Chief of the Materials
Control and Accountability Branch, Office of Safeguards and
Security, the Rocky Flats Field Office was notified of a
nonconcurrence on their SSSP. Listed as a primary concern
was the fact that Rocky Flats' SSSP did not reflect the
revised 1993 consequence values for theft of special nuclear
materials. Those values are found only in the Format and
Content Guide issued by the Office of Safeguards and
Security. At the completion of audit field work (March
1995), the Rocky Flats' SSSP had still not received the
necessary concurrence.

          Sites do not wish to be cited by the Department's
Office of Security Evaluations, the General Accounting
Office, or any other reviewing entity for being out of
compliance with the approval requirement. For example, the
Office of Security Evaluations criticized the Savannah
River Operations Office in a 1993 report for having a large
and continuing safeguards and security investment that was
not supported by a SSSP. Their report found that this
office had not based facility planning, program execution,
and program evaluation on an approved Master Safeguards and
Security Agreement and SSSP. The approval of the SSSP
document has also been vital enough to warrant the attention
of the General Accounting Office in a report issued in
October 1992 (Nuclear Security: Safeguards and Security
Planning at DOE Facilities Incomplete, GAO/RCED-93-14). The
report cited the Department for having unapproved SSSPs and
having a lack of commitment to safeguards and security
planning. It continued to say that one of the reasons the
SSSPs were not approved was that program guidance from
Headquarters was evolving throughout the planning process.

          An example of noncompliance with the Department's
directives system is issuance of the Design Basis Threat
Policy (Threat Policy). The Threat Policy dictates the
threat strategies used in the SSSP and provides the basis
for all security costs incurred by the Department. It is
revised regularly by Security Affairs, but no field or
program office is given the opportunity to provide input to
this document. Program offices in Headquarters have
repeatedly asked the Office of Security Affairs to
participate in the revision process but the requests have
not been granted. For example, the Director, Office of
Safeguards and Security Management, Office of Environmental
Management, stated in a July 1994 memorandum that it was
essential for EM as well as other program offices to be
active participants in the Threat Policy annual review.

          Officials from the Office of Threat Assessment,
which assists in addressing national threat issues, stated
that they had no problem with allowing program officials an
opportunity to participate in the revision process, and,
further, that if the Threat Policy was defendable there was
no reason not to allow field and Headquarters personnel an
opportunity to review it. The Office of Human Resources and
Administration agrees that the Threat Policy should be
issued as formal Departmental policy; however, they do not
currently have a procedure to process and issue classified
policy.

REASONS FOR CURRENT PRACTICES
          The Office of Safeguards and Security did not
completely follow the appropriate procedures for
communication of proposed policy, including the proper
Departmental coordination and concurrence. The review
showed that although attempts were made to issue the new
security requirements through the Directives System, they
were met with significant objection and nonconcurrence from
Departmental elements and program offices. Consequently,
guidance was subsequently issued outside of the Directives
System to establish policies that Departmental elements and
program offices had nonconcurred in.

          In late 1992, the Office of Safeguards and
Security drafted DOE Order 5630.XX, lSafeguards and Security
Management and Planning Process.n This order was sent
through the Office of Human Resources and Administration, as
required by the directives system, for review and comment by
the affected offices. The order contained much the same
provisions as the guidance does today and would have
established a comprehensive process for the development and
issuance of SSSPs, including an expanded base of facilities
required to submit SSSPs and a revised format for the SSSPs.

          The order also would have required the use of the
two guides issued by Safeguards and Security. Comments
returned on the draft order contained numerous objections to
the proposed revisions, including nonconcurrences from the
Offices of Defense Programs, Environmental Management,
Energy Research, Intelligence (currently part of the Office
of Nonproliferation and National Security), and Nuclear
Energy. The Office of Defense Programs' comments called for
the recision of the guides pending the resolution of
nonconcurrences by program offices. The Office of
Environmental Management objected to the fact that they had
twice previously provided comments that had not been
addressed and provided several reasons for their
nonconcurrence including the resource intensive verification
process called for in the draft order. The Office of
Intelligence, now part of the same organization as the
Office of Safeguards and Security, stated that lIN [Office
of Intelligence] not only disagrees with the order as
written, but also with the implied techniques of execution
through uncoordinated Guides...n The Office of Nuclear
Energy also cited Safeguards and Security for not addressing
previous concerns and for not providing cost benefit
justification as requested. The draft order has not been
processed through the Departmental Directives System since
the Office of Safeguards and Security received the
nonconcurrence comments.

EFFECTS OF GUIDANCE REQUIREMENTS

          Allowing policy to be issued by means other than
the Directives System or Secretarial approval is counter-
productive to the Department's efforts to meet Presidential
initiatives to reduce regulatory requirements. In addition,
the unjustified increases for new SSSP requirements will
cause the sites to spend millions of dollars for
improvements or compensatory measures.

          Of the sites we visited, Savannah River Operations
Office, Lawrence Livermore National Laboratory, and Los
Alamos National Laboratory all have facilities that will be
pushed above the acceptable level of risk when the new
consequence values are used. Each of these sites will need
to devise and install costly additional compensatory
measures to counter the increases in the levels of risk
caused by the unjustified increases in the consequence
values. Compensatory measures would include the designing
of new security systems, installation of a Perimeter
Intrusion Detection Alarm System, and/or hiring of
additional security police officers.

          At the Savannah River site, between $5.1 million
and $6.7 million will need to be spent on upgrades and
enhancements and $1.5 million to reevaluate the SSSPs. At
Lawrence Livermore National Laboratory almost $100,000 will
be spent annually to maintain additional protective force
members. Los Alamos National Laboratory will spend $1.2
million annually to add protective force members and
$400,000 for security system upgrades to compensate for the
increase in risk. Cost estimates were not received from
Rocky Flats Field Office and Idaho Operations Office. Rocky
Flats could not provide a timely cost estimate and Idaho had
already established security levels above the new
requirements.

          Although cost data was not readily available from
each Departmental site, we expect that other sites, such as
Rocky Flats, will also have to spend significant additional
funds to install upgrades and enhancements to their facility
protection systems where the new guide requirements have
raised their security risks above the lacceptablen level.
                         PART III

              MANAGEMENT AND AUDITOR COMMENTS

     Although the Office of Nonproliferation and National
Security agreed that guidance should not be used as policy,
they have not agreed to implement the recommendations and
stated that they will continue to use the guides.
Management also disagreed that: 1) guidance issued by their
office established requirements, 2) the new consequence
values were unjustified, or 3) the Design Basis Threat
Policy should be coordinated with the affected offices.

Recommendation 1

     We recommend that the Director, Office of
Nonproliferation and National Security ensure that the
Office of Safeguards and Security discontinue using the
lFormat and Contentn and the lCriteria and Reviewn Guides as
policy for evaluation, approval, and concurrence of Site
Safeguards and Security Plans until formal coordination and
concurrence have been obtained from program and field
elements.

     Management Comments. Management agreed that the guides
should not be used as policy and stated that the lFormat and
Contentn and the lCriteria and Reviewn Guides are, in fact,
just guides. They were designed to replace the l1989 SSSP
Preparation Guiden and have been reviewed numerous times by
the field. They will continue to be used.

     Management also stated that the guidance was designed
to provide a consistent and standardized methodology to
implement policy. The guides provide the standardization
for the planning process, particularly in the areas of
development, preparation, review, and acceptance.
Eliminating the guides will increase the likelihood that
inconsistent approaches for evaluating SSSPs across the
Department will be developed and implemented. Such
inconsistencies can have significant impacts on safeguards
and security programs with respect to efficiencies (e.g.,
resource allocations) and system effectiveness. The lack of
guidance limits Headquarters and the fields ability to
evaluate protection program plans and procedures across the
spectrum of threats (in terms of consequences and risk)
characteristic of facility operations and other factors.

     Auditor Comments. While management stated that they
agreed with the recommendation, their response does not
indicate that action is planned to correct the problem
identified.

     By issuing guidance and informing the field sites that
they would be evaluated against the guidance requirements,
the Office of Safeguards and Security circumvented the
Departmentms Directives System (Directives System) and
forced facilities to use the SSSP guidance as policy. This
guidance is used during the SSSP verification reviews, which
involve visits from the Office of Safeguards and Security
along with the responsible program offices, (primarily
Defense Programs and Environmental Management) to evaluate
each SSSP. Safeguards and Security must concur with the
document and the Headquarters program office must approve
it. Departmental officials have informed us that without
Safeguards and Securityms concurrence, the program office
managers are unwilling to approve the Site Safeguards and
Security Plan. Without this approval, the sites can be
cited for noncompliance with Departmental orders by the
Office of Security Evaluations.

     Although the guides used   to evaluate site performance
have been reviewed lnumerousn   times, they were not issued
through the Directives System   and, consequently, comments
provided were not required to   be addressed by the Office of
Safeguards and Security.

     The Office of Human Resources and Administration agreed
that if the guides were being used to evaluate the SSSPs,
then the requirements in these guides were being treated as
policy. One official stated that allowing program directors
to issue policy defeated the purpose of current initiatives
of the National Performance Review and the Presidentms
September 1993 Executive Order to eliminate agency internal
management regulations. Also the requirements established
by the Office of Safeguards and Security in these policies
would neither be subjected to review by affected parties nor
cost-benefit analyses required under the Directives System.

     The Office of Inspector General is not advocating the
elimination of the guides. We fully support the idea of
consistent and standardized methodology for the development
of SSSPs. However, use of these guides for site evaluation
must be discontinued until they have been issued as policy
under the Directives System.

Recommendation 2

     We recommend that the Director, Office of
Nonproliferation and National Security ensure that the
Office of Safeguards and Security coordinate all proposed
policy changes and guidance, when used as policy, with
affected program and field offices through the Departmental
Directives System.

     Management Comments. Management concurred in principle
with the recommendations and stated that all proposed policy
changes subject to the Directives System must be coordinated
with program and field offices. It was further stated that
guidance is not considered as policy and therefore
implemented programs should not be subject to explicit
inspection against the guidance. Requirements, whether or
not justified, have never been and cannot be established by
guidance. Within the Department, requirements can only be
established by policy promulgated through the Directives
System. Actual publication of policy, in the form of a
Departmental directive is the last step in a process which
involves coordination with organizations who are affected by
the policy/requirement and who are in a position to provide
meaningful input to the process. Guidance issued to the
field is only intended as a means to share lessons learned
in order to enhance the effectiveness and efficiency of site
safeguards and security programs as they endeavor to meet
requirements established in the directives.

     Auditor Comments. Although management agreed in
principle, their proposed actions do not meet the intent of
the recommendation. As stated in our comments to
Recommendation 1, evaluation of the field sitesm SSSPs
against the guidance creates ldefacton policy. Therefore,
although actual guidance does not require coordination,
guidance used as policy does.


General Comments
     The Office of Nonproliferation and National Security
twice provided general comments to our report which have
been incorporated where appropriate.

     The Office of Nonproliferation and National Security
stated that the protection of weapons, material,
information, personnel, and property under the jurisdiction
of the Department of Energy is of primary importance to
their office. In order to provide proper protection,
planning--and subsequent implementation of those plans--must
be accomplished correctly and in a timely manner.

     Management Comments. Management stated that the report
erroneously asserts that the guides are policy and
mandatory. In fact, the guides are discretionary and the
field elements may use any format they choose as long as the
tenets and requirements of Departmental orders are met.

     Auditor Comments. We agree that all guides are
supposed to be discretionary; however, the way in which the
SSSP guides are used, to evaluate SSSPs, makes them
mandatory rather than discretionary. The Inspector
Generalms Office does not state that guides are policy and
mandatory, only that the SSSP guides have been used
improperly and have become ldefacton policy. Since the
Office of Safeguards and Security uses the guides to
evaluate the SSSP, and the site must have Safeguards and
Securityms concurrence on the document, and that concurrence
cannot be obtained without following the guides, the guides
become mandatory.

     Management Comments. Management stated that the
Departmentms Directives System Manual has never been
coordinated and therefore has never been published. It
exists only as a draft and therefore cannot establish
publication policy requirements.

     Auditor Comments. The Office of Human Resources and
Administration issued the New Directives System Manual (DOE
M 251.1-1) in May 1995 and again in October 1995. Prior to
its final issuance, the draft was considered and used as
policy by the Department. The Manual states, as did the
draft, that guides provide non-mandatory, supplemental
information and may not impose additional requirements. In
addition, it calls for the review of a proposed directive by
Departmental Elements and contractors to identify
significant issues, determine the feasibility of
implementing the proposed directive, provide suggestions for
alternate approaches, and provide estimates of
implementation costs when requested.

     Management Comments. The Office of Nonproliferation
and National Security disagreed with the idea that the
issuance of the Design Basis Threat Policy was an example of
noncompliance with the Directives System. They indicated
that there are no provisions for classified directives
within the Directives System. In addition, they stated that
the Design Basis Threat Policy is a national threat
statement baseline which represents a coordinated Department
of Defense-Department of Energy-Nuclear Regulatory
Commission position. The Design Basis Threat Policy is
coordinated within the Department with the appropriate
elements, e.g., the Threat Assessment office and
Counterintelligence office, the only other Departmental
elements who can address national threat issues. This
coordinated position is crucial to protection reciprocity
issues at a time of increased Department of Defense-
Department of Energy interaction regarding weapons
disassembly and protection of special nuclear material.

     Auditor Comments. Although there are no provisions for
classified directives, one purpose of the Directives System
is to ensure cost-effective and efficient use of resources
in implementing policy requirements. The Threat Policy
currently is a significant driver of security costs and
resource allocations and has a major impact on program
operations.

     As stated in the report, officials from the Office of
Threat Assessment stated that if the Threat Policy was
defendable there was no reason not to allow field and
Headquarters personnel an opportunity to review it. The
Office of Human Resources and Administration agrees that the
Threat Policy should be issued as formal Departmental
policy; however, they do not currently have a procedure to
process and issue classified policy. In addition, the fact
that the Departmentms Design Basis Threat Policy, which is a
significant driver of costs in the Department, is classified
does not eliminate the requirement for coordination with all
affected offices through the Directives System.

     In this time of budget reductions, it is particularly
important to coordinate policy requirements with management
since they are responsible for accomplishing set objectives
whether they be operational or security.

     Management Comments. Management stated that in 1993,
the Office of Safeguards and Security increased the
consequence values contained in the Site Safeguards and
Security Planning guide for diversion and theft of special
nuclear material. These changes were the result of
increased emphasis on radiological sabotage. A working
group was established consisting of program office and field
representatives to evaluate existing sabotage policies and
to recommend changes to these policies to make it more
comprehensive. This working group, co-chaired by the
Director of the Office of Safeguards and Security, actively
participated in the development of interim policy for
performing graded assessments of radiological and
toxicological sabotage vulnerabilities to achieve greater
consistency and completeness in addressing graded protection
against unacceptable impacts on the health and safety of
employees, the public, the environment, and Departmental
programs. Incremental increases in the consequence values
were made in 1993 as a function of material type and form
and its potential use in a sabotage event.

     The approach taken in making the changes in the
consequence values has been presented to Headquarters and
field elements on several occasions as explanations and
justifications for this increase in consequence value. One
such occasion was a 1994 Vulnerability Assessment Working
Group meeting in Albuquerque. At this meeting,
participants, representing program offices, operations
offices and facilities, were requested to comment on these
changes. To date no one has provided comments or impacts of
these changes to the Office of Safeguards and Security.

     Auditor Comments. The increased emphasis on
radiological sabotage was the impetus for the creation of
the radiological/toxicological consequence values, not
increases in the theft and diversion values. They are
presented as separate tables in the SSSP guides. Because of
the distinction made in the SSSP guides between these
values, our audit did not address the justification for the
radiological sabotage values.

     Other members of the developmental working group, cited
by the Office of Safeguards and Security, including
representatives from Defense Programs and Environmental
Management, did not agree with the rationale for the
increase in the theft/diversion consequence values and have
continued to state this at many discussion opportunities
including the 1994 and 1995 Vulnerability Assessment Working
Group meetings in Albuquerque.

     Officials from the Offices of Environmental Management
and Defense Programs stated that they never agreed to the
incremental change to the consequence values and that they
have been trying unsuccessfully to convene a meeting with
Nonproliferation and National Security officials to discuss
the reasoning behind the increase from the time it was
proposed.

     Management Comments. Management stated that the
issuance of the guides was not related to draft order
5630.XX since the guides were in process in early 1991, well
before the draft order. The contents of the guides were not
included in the draft order and, while most field comments
had been addressed, Headquarters opposition to the draft
order was directed towards roles and responsibilities and
not the body of the order.

     Auditor Comments. While the guides may have been
written before the order, they were included as a
requirement of the proposed order. In DOE Draft Order
5630.XX it states that lThe kFormat and Content Guide for
Site Safeguards and Security Plansm shall be used as the
basis for format, content, and general development of SSSPs.
The kSite Safeguards and Security Acceptance Criteria and
Review Guidem shall be used in the evaluation of SSSPs and
VARs during the review and approval process.n This is
further emphasized by the comment to the draft order by the
Office of Intelligence which stated that they lnot only
disagree with the order as written but also with the implied
techniques of execution through uncoordinated Guides....n
The fact that the order was never published indicates that
the Headquarters and field comments had not been
sufficiently addressed by the Office of Safeguards and
Security.

     Management Comments. Management felt that the
statement made regarding the cost at Savannah River is
misleading. They stated that the Savannah River Operations
Office spent over $7 million and five years developing their
SSSP, while completing only one plan. Subsequently, the
Office of Safeguards and Security sent a team to Savannah
River in the spring of 1994. During the two months that the
team was at Savannah River, the team utilized the revised
planning guidance and completed five planning documents for
less than $200,000.

     Auditor Comments. While it is commendable that the
Office of Safeguards and Security aided Savannah River in
the completion of their SSSPs for a significantly less
dollar figure than what was previously spent, the report
primarily focuses on the costs to implement the plans,
rather than the costs of initial development.

     Management Comments. Management also objected to the
use of the General Accounting Office report (RCED-93-14)
issued October 1992. They stated that, during a close-out
meeting between the GAO and the Office of Safeguards and
Security, GAO agreed they had been misled by both field and
Headquarters elements. GAO also agreed that guidance and
policy had not changed prior to late 1992 and that
programmatic and field elements still had not completed
SSSP/MSSAs after 5 years.

     Auditor Comments. The documentation used to support
the statements made by GAO do not indicate any discussion or
agreement on the part of GAO to change the report. We saw
no indication that supports the Office of Safeguards and
Securityms assertion of misleading information. Moreover,
DOE comments to the report include agreement from
responsible DOE officials, including the Director, Office of
Safeguards and Security with the facts presented in the
report.

     Management Comments. Management asserted that the SSSP
guidance was used as guidance, not policy, and that guidance
is designed to provide a consistent and standardized
methodology to implement policy. In this case, the SSSP
guides provide the standardization for the SSSP process,
particularly in the areas of development, preparation,
review and acceptance. In addition, the guides are
discretionary and sites are allowed to use the 1989
          guidance, the revised guidance, or develop their own format.
          However, a plethora of formats and contents will
          significantly increase the cost and decrease the
          effectiveness of any planning process and resource
          optimization initiative.

               Auditor Comments. The Office of Inspector General does
          not advocate the elimination of the guides and supports a
          consistent and standardized methodology. Our report
          emphasizes that the appropriate review and coordination of
          the guides take place if they are to be used as evaluation
          tools.

               Management Comments. Management stated that the guides
          are cost-effective in that they provide a cohesive,
          standardized, consistent format and methodology for the
          preparation, development, review, and acceptance of
          MSSAs/SSSPs. This standardization was missing under the
          process depicted in 5630.13 and 5630.14. Comments at the VA
          Quality Panels by field sites have stated that the cost to
          produce a SSSP under the revised format is the same, if not
          less than the 1989 format and the cost to update and
          maintain the document is substantially less than the MSSA
          format.

               Auditor Comments. Again, we are not advocating the
          elimination of the guides. We commend the Office of
          Safeguards and Security for its initiative to introduce a
          more cost-effective, standardized and consistent format for
          the SSSP process. Our problem is not with the format itself
          or with the cost of producing the document. Our concerns are
          with the use of new requirements without coordination with
          affected elements and the costs to add security enhancements
          and upgrades as a result of the implementation of the new
          SSSPs.
                                   IG Report No. DOE/IG-0382

                            CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the
usefulness of its products. We wish to make our reports as respon- sive
as possible to our customers' requirements, and therefore ask that you
consider sharing your thoughts with us. On the back of this form, you may
suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable
to you:


1.   What additional background information about the selection,
     scheduling, scope, or procedures of the audit or inspection would
     have been helpful to the reader in understanding this report?


2.   What additional information related to findings and recommendations
     could have been included in this report to assist management in
     implementing corrective actions?
3.   What format, stylistic, or organizational changes might have made
     this report's overall message more clear to the reader?


4.   What additional actions could the Office of Inspector General have
     taken on the issues discussed in this report which would have been
     helpful?


Please include your name and telephone number so that we may contact you
should we have any questions about your comments.


     Name                                        Date ______________________

     Telephone                                   Organization ______________

When you have completed this form, you may telefax it to the Office of
Inspector General at (202) 586-0948, or you may mail it to:


            Office of Inspector General (IG-1)
            Department of Energy
            Washington, D.C. 20585
            ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of
the Office of Inspector General, please contact Wilma Slaughter at (202)
586-1924.
